PROOF OF SERVICE
BY PERSON IN STATE CUSTODY
(C.C.P jยง 1013 (A), 2015.5: F.R.C.P.5; 28 U.S.C. ยง 1746)

I, SEBREN A. PIERCE

, declare:

I am over 18 years of age, and am not a party to this action. I am a resident of the Correctional Training
Facility Prison in the County of Monterey, State of California. My prison Address is:

CDCR #: P-60621
Correctional Training Facility
P.O. Box 705,
Cell # : RA-236UP
Soledad, Ca. 93960-0705
On 04/06/2021

, I served the Attached:

PETITION FOR REHEARING, PURSUANT TO: RULES OF THE SUPREME COURT OF
THE UNTIED STAPES, RULE: 44; CERTIFICATE OF COUNSEL,"PRESENTED IN
GOOD FAITH AND NOT FOR DELAY; SECOND CERTIFICATE OF COUNSEL, ESTABLISHING: "SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED..." MEMORANDUM OF POINTS AND AUTHORITIES.
On the parties herein by placing true, and correct copies thereof, enclosed in a sealed envelope, with
postage thereon fully paid, verified bv, and given to prison staff *, for deposit in the United
States Mail provided at the above-named Correctional Institution in which I am presently confined.
The envelope was addressed as follows:

ATTORNEY GENERAL OF THE STATE OF CALIFORNIA
ATTN: ROB BONTA

501 I STREET, SUITE 7-600
SACRAMENTO, CA. 95814
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true, and correct.

Executed on: 04/06/2021

.6e:A/Aea
(Declarant's Signature)

MR. SEBREN A. PIERCE
(NON,INTERESrED PARTY)

* Please, note that according to the prison mail box rule, the document(s) mentioned herein is considered filed the day it is
handed over to prison authorities for mailing to the court. See 1-luizar v. Carey (9`h Cir. 2001) 273 F. 3d 1220, 1221,
Moore v. Twomey (2004) 120 Cal. App. 4'h 910, 913-918.

